<html>
<title> - IMPLEMENTATION OF THE PIPELINE INSPECTION, PROTECTION, ENFORCEMENT, AND SAFETY ACT OF 2006</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
IMPLEMENTATION OF THE PIPELINE INSPECTION, PROTECTION, ENFORCEMENT, AND 
                           SAFETY ACT OF 2006 

=======================================================================

                               (110-147)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-308 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
GRACE F. NAPOLITANO, California      WAYNE T. GILCHREST, Maryland
NICK LAMPSON, Texas                  STEVEN C. LaTOURETTE, Ohio
ZACHARY T. SPACE, Ohio, Vice Chair   JERRY MORAN, Kansas
BRUCE L. BRALEY, Iowa                GARY G. MILLER, California
TIMOTHY J. WALZ, Minnesota           HENRY E. BROWN, Jr., South 
NICK J. RAHALL II, West Virginia     Carolina
PETER A. DeFAZIO, Oregon             TIMOTHY V. JOHNSON, Illinois
JERRY F. COSTELLO, Illinois          TODD RUSSELL PLATTS, Pennsylvania
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
ELIJAH E. CUMMINGS, Maryland         JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)



























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Johnson, Hon. Carl T., Administrator, Pipelines and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation, accompanied by Stacey L. Gerard, Assistant 
  Administrator..................................................     4
Sammon, John, Assistant Administrator for Transportation, Sector 
  Network Management, Transportation Security Administration, 
  U.S. Department of Homeland Security...........................     4
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    22
Costello, Hon. Jerry F., of Illinois.............................    28
Cummings, Hon. Elijah E., of Maryland............................    29
Larsen, Hon. Rick, of Washington.................................    32
Oberstar, Hon. James L., of Minnesota............................    33

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Johnson, Carl T..................................................    38
Sammon, John.....................................................    66
Scovel, III, Hon. Calvin L.......................................    71

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   HEARING ON IMPLEMENTATION OF THE PIPELINE INSPECTION, PROTECTION, 
                  ENFORCEMENT, AND SAFETY ACT OF 2006

                              ----------                              


                        Wednesday, June 25, 2006

                   House of Representatives
    Committee on Transportation and Infrastructure,
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:20 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Corrine 
Brown [Chairwoman of the Subcommittee] presiding.
    Ms. Brown. Will the Subcommittee officially come to order, 
the Subcommittee on Railroads, Pipelines, and Hazardous 
Materials?
    The Subcommittee is meeting today to hear testimony on 
Implementation of the Pipeline Inspection, Protection, 
Enforcement, and Safety Act of 2006.
    This will be the first hearing that the Subcommittee has 
held on pipeline safety since taking over jurisdiction on this 
issue at the beginning of the Congress.
    One of the top priorities of the Committee when the 
Democrats took over was to expand the oversight role that was 
lacking, and allowing the Administration to go unchecked by 
Congress.
    Nowhere is this oversight more necessary than the pipeline 
infrastructure in this Country, which transports billions of 
gallons of fuel, natural gas, and hazardous materials. This is 
a critical issue as we struggle to make our Nation's 
infrastructure safe from accidents and secure from attacks. It 
is also clear that pipeline accidents don't just impact the 
communities where they happen; they can impact the entire U.S. 
economy.
    Every day in the U.S. millions of gallons of fuel and other 
hazardous liquids travel through 2.2 billion miles of pipeline 
that deliver these important commodities to local towns and 
businesses. In my home State of Florida, we have nearly 32,000 
miles of pipelines, and as recently as November we had a 
pipeline accident that badly injured a teenager and forced the 
evacuation of 3,000 homes. Sadly, my State is one of only two 
States that has failed to accept Federal matching funds from 
the Pipelines and Hazardous Materials Safety Administration, 
but I plan to work very closely with the State to ensure that 
they take advantage of this opportunity, and I have discussed 
this with the panel.
    The Nation's pipeline safety program was strengthened and 
reauthorized through 2010 by the Pipeline Inspection, 
Protection, Enforcement, and Safety Act of 2006.
    The Act requires the Department of Transportation and 
pipeline operators to implement an integrity management program 
for gas distribution pipes and to ensure that all low stress 
hazardous liquid pipelines are subject to the same standards as 
other hazardous liquid pipelines. It strengthened PHMSA's 
authority to ensure corrective action from pipeline operation 
and to help restore pipeline operation during disasters. The 
legislation also increased inspectors by 50 percent and 
required the certification of safety programs by senior company 
executives.
    Unfortunately, PHMSA has failed to fully implement the 
statutory mandate contained in the PIPES Act, which was due by 
December 31st, 2007. But had I known, Mr. Johnson, that 
announcing a hearing on this issue would have prompted us to 
get many of the things that we requested earlier, I would have 
held a hearing earlier. Since the hearing was announced on May 
16th, they have done some quick work and issued a Notice of 
Proposed Rulemaking on the distribution pipeline integrity 
management directive, and two reports relating to corrosion 
control and leak detection were sent to Congress last Monday 
evening. I wish we got that kind of reaction out of the 
Department on other issues this Subcommittee deals with.
    On security matters, a DOT Inspector General's assessment 
of the state of pipeline security that was mandated by the 
PIPES Act, and released last month, made it clear that much 
additional work was needed by PHMSA and TSA to ensure safety of 
public and the environment.
    I look forward to hearing from today's panelists on what 
additional progress is being made by these agencies to fully 
implement the PIPES Act and to address the concerns raised in 
the Inspector General's report.
    Before I yield to Mr. Shuster, I ask that Members be given 
14 days to revise and extend their remarks and be permitted to 
submit any additional statements and material by Members and 
witnesses. Without objection, so ordered.
    I yield to Mr. Shuster for his opening statement.
    Mr. Shuster. Thank you, Madam Chairman, for holding this 
hearing. Thank you for yielding to me. This hearing on the 
Pipeline Inspection, Protection, Enforcement and Safety Act of 
2006, or better known as the PIPES Act, it is important that we 
hold this hearing because there has been a delay, but I think, 
from what I have seen and heard, that they are moving forward, 
and I want to thank Mr. Johnson and Ms. Gerard for your 
efforts.
    I also want to welcome the other folks that are here, Mr. 
Scovel and Mr. Sammon, for being here today.
    This is our first hearing in this Congress on the pipeline 
safety, and it comes at an interesting time for the pipeline 
community. PHMSA is in the process of implementing many of the 
statutory requirements that were set forth in the PIPES Act, 
and the PIPES Act set a very ambitious schedule for PHMSA. The 
agency was required, as we heard, to have their report on a 
variety of issues by December 31st of 2007. That was 
approximately a year after the President signed the bill into 
law. While PHMSA was unable to meet most of these deadlines, I 
am happy to see, as I said, there is substantial progress being 
made in implementing the key regulatory requirements set forth 
by the bill.
    One of the success stories for the agency and the PIPES Act 
has been in the area of damage prevention. PHMSA and the Common 
Ground Alliance just celebrated the one-year anniversary of 
their national 811 Call Before You Dig public awareness 
campaign and was recently awarded the Silver Anvil Award for 
the Public Relations Society of America, so congratulations for 
that.
    In addition, PHMSA is actively involved in advancing State 
pipeline damage prevention programs, providing assistance the 
States need to set up State damage prevention programs that 
include the nine elements prescribed in the PIPES Act.
    On these issues of pipeline security, I look forward to 
hearing from all the witnesses today and to hopefully hear 
about better coordination between the responsibilities of the 
TSA and PHMSA in this area. The inspector general has released 
a report on these efforts in May, and I look forward to his 
summary and to hear of PHMSA's and TSA's reaction to the 
report.
    So thank you, Madam Chairman, for holding this hearing, and 
I yield back.
    Ms. Brown. Thank you.
    I ask unanimous consent that the gentleman from Washington, 
Mr. Larsen, be allowed to participate in today's hearing and 
sit and ask any questions of the witnesses. Without objection, 
so ordered.
    I would like to welcome and introduce today's panel. Our 
first witness is the Honorable Carl T. Johnson, Administrator 
of Pipelines and Hazardous Materials Safety Administration; our 
second witness is the Honorable Calvin L. Scovel III, Inspector 
General for the U.S. Department of Transportation; and our 
third and final witness is Mr. John Sammon, Assistant 
Administrator for Transportation, Sector Network Management, at 
the Transportation Security Administration. He used to live in 
my district, in Jacksonville, Florida, where he worked as a 
Senior Vice President at CSX Railroad from 1999 through 2000. 
Welcome.
    Let me remind the witnesses that, under Committee rules, 
all statements must be limited to five minutes, but the entire 
statement will appear in the record. We will allow the entire 
panel to testify before questioning of the witnesses.
    We are pleased to have you all here this afternoon, and I 
now recognize Mr. Johnson. Mr. Johnson.

  TESTIMONY OF THE HONORABLE CARL T. JOHNSON, ADMINISTRATOR, 
 PIPELINES AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION, U.S. 
DEPARTMENT OF TRANSPORTATION; ACCOMPANIED BY STACEY L. GERARD, 
 ASSISTANT ADMINISTRATOR; THE HONORABLE CALVIN L. SCOVEL, III, 
INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; AND JOHN 
  SAMMON, ASSISTANT ADMINISTRATOR FOR TRANSPORTATION, SECTOR 
  NETWORK MANAGEMENT, TRANSPORTATION SECURITY ADMINISTRATION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Chairwoman Brown, Ranking Member Shuster, 
Members of the Committee, I am pleased to discuss how the 
Pipeline and Hazardous Materials Safety Administration is 
advancing pipeline safety.
    As Administrator for only six months, I am pleased to say 
we are making progress both in complying with the requirement 
of the PIPES Act and advancing overall safety performance. 
PHMSA has proposed standards for integrity management for 
distribution pipelines, including requiring operators to 
install excess flow valves in new construction and when the 
opportunity is available. PHMSA is addressing the requirements 
for operators to develop a plan to reduce all risks in pipeline 
control, including human factors like fatigue and NTSB 
recommendations on the mechanics of controls and alarms.
    PHMSA has been working to protect unusually sensitive areas 
from rural on-shore hazardous gathering lines and low stress 
pipelines. We issued phase one of the final rule, which covers 
those low stress lines that propose the highest risk to the 
environment.
    PHMSA also issued a rule for the use of safety orders as an 
additional option for addressing pipeline integrity threats, 
putting us in a better position to ensure operators are 
addressing longer term conditions before they degrade.
    The PIPES Act required that PHMSA evaluate leak detection 
technology and report on the effectiveness of leak detection 
systems. While we are working on research to advance the 
sensitivity of technology to find small leaks, we believe we 
have adequate oversight in place to evaluate leak detection 
capability and exercise authority to compel system upgrades 
when warranted. The final report was sent to Congress.
    Similarly, the PIPES Act mandated that we review the 
adequacy of internal corrosion for hazardous liquid pipelines 
and submit a report to Congress. Our review indicates that our 
existing standards to protect against internal corrosion are 
generally sufficient to allow PHMSA to achieve safety and 
environmental protections. This report was sent to Congress.
    PHMSA began providing monthly update summaries to the 
public of all enforcement actions through our enforcement 
transparency Website last year. PHMSA continues to make full 
use of its penalty authority. In 2007, PHMSA proposed civil 
penalties of $4,288,800, a 39 percent increase from 2006 and 
the second highest amount since 2002. So far, in 2008, we have 
proposed total civil penalties of $4,933,800.
    Another of our top safety priorities is strengthening our 
national damage prevention efforts. Three-fourths of all human 
consequences from pipeline failures occur in distribution 
systems. Sixty percent of these failures are caused by 
excavation damage. Our most important safety strategy at the 
distribution level is reducing construction-related damage, and 
I am happy to say that even on an annual basis you can see our 
efforts are paying off. This year we are making our first round 
of damage prevention grant awards of up to $100,000 per grant 
to up to 15 States.
    Moving from the State to the local level, the PIPES Act 
requires us to award three community information grants as 
demonstration projects. We have developed criteria and are 
working with the Congress and public interest groups to 
finalize them. PHMSA reviewed and commented, as required, on 
the GAO report on the seven year assessment interval. Last 
November we sent a report to Congress recommending that 
Congress amend the law to provide us the authority to 
promulgate risk-based standards for pipeline reassessment.
    I would like to conclude with a word about the people of 
PHMSA. This agency has a great story to tell, a critical 
mission, a smart and sound regulatory approach, and a record of 
success in promoting public safety and environmental 
protection. Like any successful organization, our greatest 
asset is our people. The dedicated men and women of PHMSA and 
our State partners are working hard, 24/7 most weeks, to 
oversee a network of more than 2.4 million miles of interstate 
and intrastate pipelines delivering essential energy products 
to communities, homes, and businesses.
    Overseeing this network means bringing to bear the best 
engineering and technical talent, collecting and using data, 
evaluating pipeline materials, reviewing designs, inspecting 
operators and plans on operations, bringing enforcement actions 
and developing new standards and informing the public about 
pipeline safety. It also means a lot of time in the field and 
on the road inspecting the construction of new pipelines and, 
regrettably, responding to pipeline incidents. We take our 
commitment to public safety very seriously and, from the 
Secretary of Transportation to every inspector and 
investigator, safety is our number one priority.
    We are making good progress and we believe it is no 
accident that the number of serious incidents in which human 
consequences is steadily trending downward.
    Thank you, and I would be pleased to answer questions.
    Mr. Scovel. Chairwoman Brown, Ranking Member Shuster, 
Members of the Subcommittee, we appreciate the opportunity to 
testify regarding pipeline security and the actions needed from 
DOT and DHS to enhance the security of the Nation's pipeline 
infrastructure.
    Safeguarding our pipelines is a continuing challenge for 
DOT and DHS. A well-defined, well-coordinated interagency 
approach is absolutely critical.
    As this Subcommittee is aware, the PIPES Act directed us to 
assess PHMSA's and TSA's actions to implement the pipeline 
security annex. We issued our report last month and recommended 
several actions that PHMSA, in collaboration with TSA, must 
take to enhance pipeline security.
    Today we will make three points. First, PHMSA and TSA have 
made progress, but the current situation is far from an end-
state, and challenges remain. The annex required PHMSA and TSA 
to jointly develop an action plan by February 2007 to implement 
annex provisions and various program elements.
    In December 2007, we were concerned about an overall lack 
of progress on several fronts. At the time, the agencies had 
not finalized the action plan or completed nine of the eleven 
annex program elements. There were no deadlines to drive 
decisions or reviews. We shared our concerns with PHMSA and 
TSA.
    To their credit, both PHMSA and TSA addressed these issues 
earlier this year, and considerable progress has been made. The 
two agencies developed a new action plan and began addressing 
outstanding program elements and initiatives. The majority of 
initiatives are now planned for completion by the end of 2009. 
However, the action plan still does not contain all initiatives 
required by the annex, such as developing protocols for 
information sharing. Going forward, both agencies need to move 
with a sense of urgency to finalize and execute the annex.
    Second, clearer lines of authority are needed to address 
oversight and enforcement for liquified natural gas, or LNG, 
facilities. The annex does not explicitly state which agency 
has primary oversight and enforcement authority for LNG 
operators, an important part of the pipeline infrastructure. As 
a result, there is a lack of clearly defined roles at the 
working level. Both PHMSA and TSA review pipeline operators' 
compliance with their respective security guidance. We note 
that TSA's guidance, however, is voluntary and will remain 
unenforceable unless a regulation is issued to require 
compliance. Conversely, PHMSA is able to enforce its LNG 
security regulations, which existed prior to the creation of 
TSA in 2001. This may cause pipeline operators to receive 
conflicting or duplicative guidance. It also creates confusion 
as to which agency should be the lead Federal security 
regulator.
    We think PHMSA and TSA should amend the annex to delineate 
the agencies' roles and responsibilities for LNG operators. We 
point to an interagency agreement in 2004 between PHMSA, the 
Coast Guard, and the Federal Energy Regulatory Commission for 
safety and security reviews of LNG facilities located near 
ports. This helped focus actions and resources and limit 
duplicative efforts. A similar approach should be taken with 
the pipeline security annex to clearly define roles and 
responsibilities for inland LNG facilities.
    Third, PHMSA and TSA need to maximize resources for 
assessing security plans and guidance. Last year, Congress 
passed the 9/11 Commission Act, which requires DOT and DHS to 
develop a plan to review the 100 most critical operators' 
security plans and critical facilities by August 2008. These 
reviews are underway. To determine whether additional security 
regulations are needed, PHMSA and TSA will need to evaluate and 
test the adequacy of existing security standards as agreed to 
under the annex.
    We see two areas where PHMSA and TSA can maximize their 
resources. First, PHMSA should participate in these inspections 
on a regular basis, especially given its level of expertise in 
security-related matters. Second, PHMSA and TSA should develop 
testing protocols and perform vulnerability tests to ascertain 
whether unauthorized individuals can penetrate operators' 
critical infrastructure, including through cyber attacks.
    DOT and DHS must move beyond coordination and leverage 
their resources and skill sets to secure the Nation's 
pipelines. This is a fundamental factor to enhance pipeline 
security and take a proactive approach.
    That concludes my statement, Madam Chairwoman. I would be 
happy to answer any questions that you or other Members of the 
Subcommittee might have.
    Mr. Sammon. Good afternoon, Chairwoman Brown, Ranking 
Member Shuster, and Members of the Subcommittee. I am pleased 
to have this opportunity to testify on the collaboration 
between TSA and the Pipeline and Hazardous Materials Safety 
Administration of the U.S. Department of Transportation. I 
would like to highlight how our respective agencies have 
different but complimentary roles and responsibilities to 
protect the security and safety of our Nation's pipelines.
    To understand the context in which TSA exercises its 
authority in the security of pipeline systems, it is important 
to review the transition of responsibilities from PHMSA to TSA 
and DHS.
    In November 2001, the Aviation and Transportation Security 
Act established TSA within DOT. That Act gave TSA the lead 
responsibility for security in all modes of transportation, 
including pipelines. DOT retained responsibility and authority 
for safety.
    In November 2002, when the Homeland Security Act created 
DHS, TSA was transferred from DOT to DHS.
    In 2004, a Memorandum of Understanding between DHS and DOT 
recognized DHS as having primary responsibility for security in 
all modes of transportation. The 2006 TSA-PHMSA Annex to that 
MOU further clarifies the respective agencies' roles.
    The evolution of TSA's authority in transportation is most 
apparent in commercial aviation. The rules and responsibilities 
among airlines, airports, and air cargo industry have become 
well established. In the simplest terms, FAA has responsibility 
for enforcing the safety and reliability of aircraft, and TSA 
has responsibility for the security of passengers and cargo on 
the plane.
    Security rulemaking authorities in other modes of 
transportation are evolving. General aviation and freight rail 
will soon have clarifying regulations in place. Rules for 
training, security assessments, and security plans will cover 
highway, freight rail, and transit. Down the road, we are 
contemplating rules for pipeline and highway based upon best 
security practices and the direction of Section 1557(d) of the 
9/11 Act. Where DOT legacy rules govern security, those rules 
provide an important baseline and TSA supports their efforts. 
As TSA continues its rulemaking focus beyond commercial 
aviation, TSA will build upon and supersede DOT rules. That is 
the nature of our relationship.
    I would like to assure the Subcommittee that DOT, PHMSA, 
and TSA are aligned and work closely together. TSA's Pipeline 
Security Division and the PHMSA staff communicate daily. PHMSA 
accompanies TSA on pipeline corporate security reviews. PHMSA 
attends TSA's pipeline security conferences. PHMSA is a member 
of TSA's Transportation Security Government Coordinating 
Council, along with other important pipeline working groups. 
PHMSA participates in TSA's monthly pipeline security 
teleconference calls. And the TSA-PHMSA MOU Annex working group 
meets at least quarterly to review and update action items in 
the plan.
    Now, the core focus of TSA's efforts is on risk reduction 
and better security. The centerpiece of TSA's pipeline security 
program is the pipeline security review. TSA assesses the 
corporate security
    In 2003, President Bush issued HSPD-7, giving DHS the lead 
role in the protection of certain critical infrastructure, 
including pipeline systems. TSA assesses the corporate security 
plans and programs of the top pipeline operators. We then 
establish a baseline to evaluate security standards and 
identify coverage gaps. TSA ranks pipeline companies on a risk 
basis as a means of focusing our security improvement efforts 
with those companies. TSA's pipeline smart practices reflex 
lessons learned from years of corporate security reviews. TSA 
identifies and shares its best practices with pipeline industry 
representatives. Coupled with pipeline employee security 
awareness training, TSA has helped to substantially increase 
the effectiveness of industry security programs by making 
training available to many pipeline employees.
    In conclusion, TSA has worked hard with PHMSA and our 
industry stakeholders to clarify our security and safety roles. 
Security stakeholders have told us that they understand our 
respective roles and they are not confused. Our TSA team looks 
forward to working in concert with PHMSA to further align our 
security network and strengthen the network as the years go on.
    I would be pleased to answer your questions.
    Ms. Brown. Thank you.
    We are going to start with Mrs. Napolitano to make your 
opening remarks and then ask your questions.
    Mrs. Napolitano. Thank you, Madam Chair. I will be brief, 
if I may.
    Thank you for the hearing. I have great interest in 
pipeline security, given that my district is home to major 
pipelines in transport of military and commercial fuels such 
that the Norwalk Tank Farm, which is owned and operated by the 
Air Force and leased out to a couple of private companies, has 
had leaks of JP-4 and JP-5 for the last 20 years. And when the 
city wanted to ask questions, they were told no way, no how, no 
shape, no form because this is high security.
    I think there has to be a lot more communication and 
ability to be able to work with the communities to inform and 
educate them, and be able to take input from them. That is one 
of the things that really is of high concern to me.
    This cleanup has been going on for 15 years; there are 
another 5 years to go on it. These are lines that have been 
there for many, many, many generations that have leaks. My 
concern is, because the fuel comes in from the ports and is 
piped, what happens if there are other leaks that have been 
buried for 20, 30, 40, 50 years and are going to affect the 
aquifers, the drinking water bodies of some of those areas? 
That is not even being covered and that is something that is of 
great concern not only to me, but many others who have had the 
unfortunate--how shall I say?--background of having air bases 
and naval bases where scraping fuel and burying it in pits was 
the modus operandi of cleaning tanks out. Now, this was many 
years ago, true, but those things are now affecting our water. 
And how do we begin to deal with it is something I would like 
to cover here.
    Now, my question to Administrator Johnson, what are you 
doing to ensure that the operators are not only investing, but 
implementing the most effective leak detection technology? And 
is this applicable to old pipelines that have been underground 
for decades?
    Mr. Johnson. Mrs. Napolitano, it is a part the integrity 
management program that every company does give a report and is 
monitored very closely on those activities.
    Mrs. Napolitano. Well, I have been on this Subcommittee a 
year and a half, and this is the first time I have ever heard 
that there is a segment of a Committee that works on these 
issues. I have been on that issue for over 20 years, and this 
is the first time I have ever learned that there was a pipeline 
and hazardous materials safety that had oversight over these 
pipelines.
    Ms. Gerard. Are you speaking of only military facilities?
    Mrs. Napolitano. At this point, only military, because that 
is where I have had my experience.
    Ms. Gerard. We do, under the Oil Pollution Act, review and 
approve the spill response plans and the issue of valves and 
leak detection is a part of the review. It is a five-year 
cycle. Every five years we look, unless the company has had 
significant changes in their planning. But that is one place 
where the Department of Transportation has jurisdiction over 
military pipelines.
    Mrs. Napolitano. Okay, but then again I am sure a lot of 
the other pipelines are built in public domain, run by private 
companies, and I would have the same concerns with them.
    Ms. Gerard. In the report that we sent to Congress on 
Monday on leak detection, we speak to the technology issues, 
where the challenges are. We have six research projects 
underway in which we are investigating ways to make the leak 
detection more sensitive. But we do discuss how we review the 
leak detection programs in high consequence areas. As a matter 
of fact, for liquid pipeline companies, 44 percent of our 
inspections have resulted in requesting some form of an upgrade 
in the leak detection capability. That report was just issued 
on Monday.
    Mrs. Napolitano. I would love to have a copy of that 
report. I certainly hope that we can move a little more 
expeditiously in trying to figure out how to protect the 
general public, because a lot of these companies will close 
shop and be gone, and then it falls on the taxpayer to do the 
cleanup. And we have so many of our communities that will be 
affected, and I am talking both public and government.
    Ms. Gerard. I would like to add that we have restored the 
national pipeline mapping system to public view so that local 
officials and the public does have access to information about 
who operates the pipelines in their communities, and we have a 
very active website that could give you information as a 
citizen on the record of that operator.
    Mrs. Napolitano. But that really doesn't answer the 
question about testing old pipelines.
    Ms. Gerard. Well, the pipelines are required to be tested 
under the integrity management program. A liquid pipeline is 
required to be assessed using two types of technology. So any 
pipeline that is an area where people could be affected by a 
spill, any place where there is a sole source of drinking 
water, and any place that we have defined as unusually 
sensitive is required to be tested and repeated to be tested.
    Mrs. Napolitano. And are those broken down by districts or 
by States or by counties, because how would we know that there 
is an issue in our area or in Mr. Sires' area?
    Ms. Gerard. The operators are required to report annually. 
It is a public record. They are required to report on their 
progress with the testing and the repair of any defect that 
meets the criteria needing repair. So those are public reports. 
We would be happy to follow up with you to help the people in 
your community learn how to find that information on our 
website. It is public.
    Mrs. Napolitano. Thank you, Madam Chair.
    Ms. Brown. Mr. Sires, your opening remarks or questions.
    Mr. Sires. Thank you, Madam Chairperson.
    I come from a district that I think there are more pipes 
underneath me than anywhere else. It is the northern part of 
New Jersey, Jersey City. We have a repository of oil in the 
Bayonne area that handles about 15 millions gallons of oil per 
day.
    I actually learned about the inconsistencies between the 
agencies as a result of a railroad accident that happened in 
Woodbridge, New Jersey with some of the hazardous materials. 
What I am concerned with is when do you inform the locals about 
the leak or the accident, the material that is spewing out of 
this leak? When do you do that? Because one of the complaints 
that I have from one of the mayors in Woodbridge on this 
particular derailment accident was that he was not informed 
what was in the tanks. I assume the same thing applies to the 
pipes. If there is an accident with the pipes, when do you 
inform the local community of what is happening? Do you inform 
it at all or do you fix it and then you tell them what 
happened? How does that work?
    Ms. Gerard. We post reports of incidents on our website. 
We----
    Mr. Sires. Ma'am, excuse me. That is not what I am asking. 
I am asking, if the accident happens, when do you tell the 
community, listen, there is a problem here? Because that is 
exactly what happened with the railroad derailment. He had all 
his EMS trucks, he had everybody there, and there was nobody to 
tell him whether his police officers or his management team was 
in danger of being contaminated with anything. So my question 
is--I know about the report, I heard you say it to the 
Congresswoman--if something happens in a pipe, when do you 
inform the community and say, look, this is a gas leak or 
whatever leak it is? Or you don't inform them until you fix it?
    Ms. Gerard. We respond to accidents in which there has been 
some form of human consequence or major environmental 
consequence. If we are at the scene of an accident, we would be 
communicating with that community immediately, along with the 
operator. We also have strengthened our requirements for the 
operators to have public education programs. It is a fairly 
recent requirement, the last few years, but they have to have 
active programs to work with the locality and to inform them 
about their integrity management program. So there are many 
opportunities.
    In addition, we work with State fire marshals on programs 
to have them involved with the community so that somebody at 
the State or local level could help identify for the community 
what is going on with the pipeline.
    Mr. Sires. This is when the accident happens?
    Ms. Gerard. When the accident happens, if we are there----
    Mr. Sires. Who do you notify?
    Ms. Gerard. If we are there, we would work with the locals.
    Mr. Sires. Well, if you are not there, is there anybody in 
charge to notify the local community----
    Ms. Gerard. The operator would be there. The operator.
    Mr. Sires.--that this particular leak, or whatever it is, 
is not hazardous to that community? What I am trying to get at 
is I know that you fix it and you respond, but sometimes 
somebody has to tell. In my district, everybody is on top of 
each other. This is a very congested district. So if something 
happens, it could hurt a lot of people and sometimes those 
communities are not informed of what the particular leak is.
    Ms. Gerard. It shouldn't happen that way, and I believe 
that we are making progress with operators providing that 
information immediately at the time of an accident, working 
with the local response community. And if we are present, we 
would certainly see that that happens. So it may not be 
perfect, but I believe that the public education requirements, 
the emphasis we are putting on working with communities is 
making a big difference on operators' programs, and we would be 
happy to follow up with you on that.
    Mr. Sires. This may not be part of this hearing, but with 
the derailment of railroad cars in my district, Woodbridge just 
had a recent derailment and the mayor and everybody showed up 
with all the equipment. Nobody told them what was going on. And 
he is very upset and he wants to have an investigation; he has 
contacted my office. I just think that somebody should contact, 
if anything happens, those communities.
    Ms. Gerard. On the hazardous materials railroad side, we 
have newly awarded a grant to the International Association of 
Fire Chiefs to build a fusion center to be able to share 
information more quickly about what is going on in incidents in 
real time. It is an area that PHMSA is involved with. We are 
making progress. We are also working with DHS, who has fusion 
centers. I think that there are more resources being brought to 
bear on sharing information about what is going on in events 
and what you have to learn from them.
    Mr. Sires. So, Ms. Gerard, up to now you haven't had 
anything like that?
    Ms. Gerard. I can't speak to, in a railroad accident, what 
the communication from the railroad operator is required to be.
    Mr. Sires. Thank you very much, Madam Chairwoman.
    Ms. Brown. We will follow up with that question. I think 
that is an excellent question because, from talking to the 
staff, now it is really no one's responsibility to notify that 
local mayor or that local community; they investigate, but they 
don't necessarily notify?
    Ms. Gerard. I am not familiar with the hazmat railroad 
public information requirements, but we will get that 
information for you and report back.
    Ms. Brown. No, I am not talking about the railroads. I am 
talking about if something happens to a pipeline. If there is 
an accident, how is the local community notified?
    Ms. Gerard. The public education requirements for pipeline 
operators would speak to a range of requirements during an 
event in general about their programs. I believe we have those 
requirements covered.
    Ms. Brown. We will come back to that.
    Mr. Larsen?
    Mr. Larsen. Madam Chair, as you know, I am a guest of this 
Subcommittee today and I don't want to interfere with your 
process. If it is appropriate for the Ranking Member to speak 
before me, then I will allow that. But, if not, I will go ahead 
and take my turn.
    I was saying I am a guest of this Subcommittee today, and I 
don't want to get out of anyone's turn. If it is more 
appropriate that the Ranking Member go before me, then I will 
take my turn after him.
    Ms. Brown. He has graciously agreed to yield so we can hear 
from you all, then we will go back and forth.
    Mr. Shuster. It is our hospitality program.
    Ms. Brown. Yes. We have worked it out.
    Mr. Larsen. I have always known Bill to be very hospitable, 
and I appreciate it very much. Thank you, Madam Chair.
    As we gear up for 2010's rewrite of this bill, it would be 
the third one that I have been through, presuming I am here, 
and I guess the one theme that has gone through this is where 
the regulatory agency hasn't stepped in to act, then Congress 
has stepped in, and that has manifested itself in the language 
of the 2002 bill and the 2006 bill, which is why I think when 
we saw the 2006 bill, a lot of actions had been taken by the 
regulatory agencies at the time, RSPA and some others, in order 
to implement the 2002 bill. So I think as we are looking at the 
implementation of PIPES, to the extent that things aren't 
getting done, it is going to be a much more involved 2010 piece 
of legislation unless things are getting done. That just seems 
one of the themes.
    Madam Chair, just before I continue, I do have an opening 
statement, but I will just enter it for the record and just 
continue with questions.
    The first question I have is for Mr. Johnson, having to do 
with PHMSA's draft criteria for the pipeline safety information 
grants to communities. We created these grants in 2002 and 
reauthorized them in 2006, and we are only now seeing the draft 
criteria for these grants. There are a few questions that have 
come from the community about those, and you may be aware of 
these questions, so I would like to get some feedback.
    One in particular has to do with requiring a community co-
sponsor for these grants to work with a pipeline operator. 
There is a concern about the independence of the plan that 
would be created from the grants if the communities are 
required to work actually with the pipeline operator. Can you 
talk about why you think that might be a good idea?
    Mr. Johnson. Representative Larsen, I think that the idea 
that we have is to have communications among all the parties 
involved so that there is a complete understanding, and that is 
what we are hoping to achieve through that.
    Mr. Larsen. I understand that. But do you think that that 
needs to be a requirement, then?
    Mr. Johnson. No, it does not need to be a requirement. It 
is just something that I think is almost intuitive, it makes 
sense to do.
    Mr. Larsen. Thanks. I hear you saying it doesn't need to be 
a requirement, and maybe that can get reflected back in the 
criteria.
    I think there was a concern, too, about having the 
community conduct a risk analysis for their plan and concerns 
that that might be expensive and suck up all the money they 
have for the grant to complete a risk analysis, in fact, when a 
risk analysis may not be necessary for the particular community 
plan that they have. Can you discuss why a risk analysis might 
be necessary when a community may not need to do one?
    Mr. Johnson. We will yield on that.
    Mr. Larsen. That is fine. Okay, great. I would appreciate a 
word back.
    Finally, requiring a project scope to include a high 
consequence area, or an HCA. Without knowing where the HCAs are 
located, I think some concerns out of the community were how 
could you require them to include in a project scope the high 
consequence areas if they weren't wholly familiar with where 
all the HCAs were located.
    Ms. Gerard. As the program has evolved, it has turned out 
that between 60 and 80 percent of the pipeline miles are in 
areas that could be affected by a pipeline spill, so we thought 
that since the vast majority of the pipeline falls into that 
category, that it would be a priority to award grants to a 
community that was in the 60 to 80 percent. We didn't mean it 
to be limiting, we just thought that with only a few projects 
it would seem best to give it to communities that have the 
greatest likelihood of being affected.
    Mr. Larsen. Well, I think there might be some work still to 
be done on the criteria, to work with the communities to flush 
these out a little bit, maybe a little more flexibility on how 
this is dealt with.
    Mr. Sammon, as you are all dealing with this dance between 
TSA and PHMSA, who goes first and who goes second on which 
issues, I think I understand your rubric, if you will, that 
security is security and safety is safety, and we have examples 
in the FAA and TSA to look to. But I guess I have one concern 
over the last several years, as we have rewritten this bill a 
couple of times, reauthorized this bill a couple of times, has 
had to do with the mapping system and the reluctance and 
resistance to some on the security side to releasing the 
mapping system and then the reluctance from the folks on the 
security side to continue to allow the map to be available. I 
hope that as you are working through this in the future, that 
you are not coming to us telling us or we are hearing from 
other people that the TSA folks have decided to subsume the 
national pipeline mapping system to the netherworld so no one 
can see it again.
    Mr. Sammon. That is a very good question. We are working--
--
    Mr. Larsen. It was more of a statement.
    Mr. Sammon. It is a very good statement. We are working 
with PHMSA. We are concerned about how much critical 
infrastructure is made available on the web, and that is 
obviously someone sitting overseas, surfing the web, looking at 
this stuff in terms of its accessibility, how critical it is; 
and, at the same time, the issue of safety and people being 
able to get to these facilities. That is why, in the railroad 
area, in terms of placarding railroad cars with hazardous 
materials, toxic inhalation chemicals and so on, we are not in 
favor of taking the placards off, because we think the first 
responders need to know and need to see what is in those 
railroad cars if there is an incident. So it is a fine line and 
we are trying to balance security versus safety, but we are 
always concerned about how much critical infrastructure you 
make available on the web; it is a balance we have to work out.
    Mr. Larsen. I understand that, and we are here to help you 
find that balance.
    Mr. Sammon. Thank you very much.
    Mr. Larsen. You are very welcome.
    Thank you, Madam Chair.
    Ms. Brown. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you, Madam Chair.
    Thank you, Mr. Larsen, for being here. I know you were very 
involved over the past couple years in the original Act, so I 
appreciate you being here and you championing pipeline safety.
    Mr. Johnson, in your testimony you mention that getting 
ready for the distribution integrity management program is a 
lot more than a rule. Can you elaborate on PHMSA's current 
oversight of the State pipeline safety programs that will help 
in the implementation of the DIM?
    Mr. Johnson. Thank you, Congressman Shuster. The 
distribution integrity management program is probably the 
biggest change in history for pipeline regulations we have 
undertaken. It did require a system and we believe we have 
built one. It required standards that were consensus standards 
that had to be vetted through a public organization; it 
required guidance and training, IT for databases and resources; 
and, in addition to that, it required working with 50 States to 
implement a performance standards that are rather difficult to 
accomplish. It takes a lot of time and a lot of coordination 
and a lot of work, and I believe we have done that. We are 
proud of the work that we have done and proud of the product.
    We award State grants based on the results of these 
evaluations, the evaluations that are made by the States, and 
that is part of the whole system.
    Mr. Shuster. When you are implementing the DIM, how do you 
address the differences between large and small, when you have 
the 500 customers versus the hundreds of thousands of 
customers?
    Mr. Johnson. There are three actual segments: there is the 
large group, then there are groups that are called, I guess, 
the small and handy--integrity management plans groups which 
are less than 12,000--and then there are small units that are 
just dealt with like an apartment building or small trailer 
park, or something of that nature. They are segregated in that 
way and each have slightly different standards.
    Mr. Shuster. I also understand that there has been a surge 
or quite an increase in pipeline construction. What are you 
doing to oversee that and making certain that the new pipelines 
being constructed are meeting the standard?
    Mr. Johnson. The pipeline building boom that we are seeing 
right now is probably the largest in the last 10 years or more, 
and it is literally changing what we are doing, bringing in new 
designs, new materials, construction methods, and all the 
challenges that go with that. The PHMSA staff is spending 
probably about 12 percent of its time overseeing this activity. 
It is a big challenge, but it is something that we are 
committed to.
    Mr. Shuster. Thank you.
    Mr. Scovel, your view on TSA doing the security and PHMSA 
safety, how is that working? Are there things falling through 
the cracks? Have they worked out communications and protocols 
enough to make sure that everybody is working together and we 
are not seeing things fall through the cracks or got left 
behind?
    Mr. Scovel. Thank you, Mr. Shuster. Your question, I think, 
goes to the working relationship between PHMSA and TSA with 
regard to security and was the subject of our report, that is, 
the implementation of the security annex through the action 
plan. Our report was released last month.
    We have found that the working relationship between the two 
agencies has been pretty good, of late especially, and we 
commend PHMSA specifically for its effort and foresight in 
creating a position dedicated specifically to pipeline 
security, as opposed to safety, and locating it in the Office 
of the Administrator, which gives it proper visibility. It is 
one-stop shopping, essentially, for PHMSA's security focus and 
gives it a point of contact specifically for TSA.
    TSA, on the other hand, has a much smaller section to deal 
with pipeline security. There is a different focus, a different 
culture, clearly, between the two. PHMSA has a much longer 
history and a culture of willing to engage in regulation. TSA, 
on the other hand, as we have heard this afternoon already, has 
focused its attention on a voluntary guidance and compliance 
scheme, as opposed to enforceable regulations.
    Mr. Shuster. Who did what? What was the last thing I 
missed?
    Mr. Scovel. TSA has decided to employ a guidance and 
voluntary compliance scheme, as opposed to PHMSA, which has a 
history of being willing to regulate inappropriate cases. There 
is that culture mix that needs to be continually negotiated 
between the two agencies.
    Mr. Shuster. In your testimony, is that the authority that 
TSA needs to pursue to be able to enforce and regulate more 
aggressively on the security side?
    Mr. Scovel. Not necessarily. I know that Congress, with the 
9/11 Commission Act of 2007, directed both agencies to assess 
the security plans of the 100 most critical operators and their 
critical facilities. That effort is underway. Regulation would 
be the most extreme action, of course, that these agencies can 
take, and that may be necessary, but until the assessment is 
complete it would be premature for me, certainly, to say that 
is the required route. It may be simply that modification of 
existing compliance plans and activities along those lines 
would suffice.
    Mr. Shuster. Mr. Sammon, do you believe you need more 
authority to be able to do your job?
    Mr. Sammon. No, I think through ATSA and the kind of 
history I outlined, we have the authority. What we are doing 
right now is following the explicit intent of Congress in the 
9/11 Act. Congress, through 9/11 Section 1408, Section 1512, 
1517, 1531, and so on, explicitly directed that regulations be 
put forward for rail transit, highway, and so on. Under 
1557(d), which covers pipelines, they specifically ask that we 
complete the review and then also determine if--and the word 
``if'' is in there clearly--necessary to promulgate regulations 
in a pipeline. And that is what we are doing, is to comply with 
the desire and wishes of Congress.
    Mr. Shuster. Thank you very much.
    I yield back, although I have gone over my time.
    Ms. Brown. Thank you.
    Mr. Johnson, I realize that PHMSA has touched on all of the 
statutory mandates in the PIPES Act in some way over the last 
18 months, but I am concerned about the slow progress in 
implementing some of the mandates. I start with the low stress 
hazardous liquid pipeline rulemaking. Why did PHMSA decide to 
pursue a two part phase approach to meet the mandate? If it is 
further information you need to complete the rulemaking, what 
specific information are you looking for? When will a rule be 
issued on phase two? Will we see a final rule on the issue in 
2008? I am really concerned about six months left in this 
Administration, and then we get a new Administration and then 
there is a time lapse. Can you address that?
    Mr. Johnson. Madam Chairman, the information that we are 
gathering--actually, the Congress permitted the rule to be 
divided in two phases, and we felt it was necessary to get the 
phase one out to protect the unusually sensitive areas, water 
and things of that nature. But we are gathering data that we do 
need to have. The data really is coming in four ways: it is 
coming in comments on dockets, it is coming from field visits 
that we are making, State surveys through the National 
Association of State Pipeline Safety Representatives--NAPSR it 
is called--and then the annual reports that companies file. We 
are constantly getting that material in and we should have it 
in relatively shortly. We anticipate having a rule ready by the 
fall, a proposal.
    Ms. Brown. I have a follow-up question. The Secretary of 
Transportation and Energy is required in the PIPES Act to 
conduct periodical studies to find out whether or not any of 
the shortage of price distributions may be caused by pipeline 
failure. And you know we are in a crisis mode as far as the 
price of oil is concerned. Do you know whether or not it has 
anything to do with failure of the pipelines?
    Ms. Gerard. We have been working on that study and are 
nearly finishing it, and from the work we have done it seems 
that the regulatory structure we have and the practices of the 
operators in fact return the pipelines to service very quickly 
or there is access to supply from trucks. So we have not 
actually seen, even with the hurricanes of 2005 and later and 
the events in Alaska, the market actually didn't experience a 
shortage for more than a few days. So we do believe that the 
structure we have in place is good enough to produce the 
reliability that we need.
    We would be happy to come up and brief you on our findings 
in more detail.
    Ms. Brown. As I said earlier, I will do a visit, a site 
visit, in the very near future.
    Mr. Larsen, I understand you have another question.
    Mr. Larsen. Thank you, Madam Chair.
    Administrator Johnson, with regards to the reassessment 
intervals, a few questions. Can you first describe the current 
waiver process that you use for the reassessment interval?
    Ms. Gerard. We went through an extensive public comment 
period and review with our advisory committee, had a public 
meeting this winter on that subject, and there is a very 
extensive set of standards in place that we would use to grant 
a waiver. We think that we have the authority, under our 
general waiver authority that pre-existed the PIPES Act, to be 
able to make a determination if there was a solid engineering 
basis for accepting a different interval in the seven years. So 
there is quite an extensive record on that.
    Mr. Larsen. Have you issued any waivers under that?
    Ms. Gerard. No, not yet.
    Mr. Larsen. The operators have pointed out for segments 
baseline inspected in 2003 and 2005 the reassessments have to 
be done in 2010 and 2012, even though some of the baselines are 
still being conducted. This is one of the issues that we 
discussed in 2006 in putting the PIPES Act together, this 
potential overlap of baseline inspections and reassessments for 
the same operator; perhaps in a different area, but for the 
same operator. That is certainly going to put some pressure on 
PHMSA and perhaps your State partners in terms of inspection 
and equipment. Are you concerned about that overlap period? Are 
you currently preparing for that overlap period by having an 
increased number of inspectors and equipment ready?
    Ms. Gerard. The burden for conducting the inspections is 
really on the operators, and we have the greater concern about 
getting the assessment in all communities. It would be our 
preference that all communities would be inspected first, 
before we were returning with reassessment. As you know, the 
PIPES Act did provide for significant increase in resources, 
both for PHMSA and States, and I believe that we are in a much 
better positions, and our States, moving forward to be able to 
have an increase in inspectors to oversee the operators' plans.
    Mr. Larsen. Are you then receiving the dollars in the 
budget to meet that increased authorization?
    Ms. Gerard. We are moving along smartly to increase the 
number of inspectors and the Senate has--I guess it was the 
Senate?--we have seen one of the marks for 2009 and we are 
hopeful that we are going to get the resources we have asked 
for.
    Mr. Larsen. Madam Chair, not to presume the reauthorization 
in a couple years, but I am just making a note about things 
beginning to take shape in looking at testimony today and 
Energy and Commerce from a few months ago we were looking at 
public safety information grant, probably looking at the 
reassessment again, low stress pipelines, this issue of 
pipeline security and safety. Those four issues probably at 
least, not to mention the other things folks are going to bring 
up, certainly probably bear some further attention from us as 
we move forward into next year and gearing up for a 2010 
reauthorization.
    Ms. Gerard. I should have pointed out that the Secretary 
did send a letter, at the request of the House Energy 
Committee, on the subject of the approach to dealing with the 
reassessment interval through a regulatory approach, and we 
would be happy to make that letter available to you dealing 
with our strategy for that.
    Mr. Larsen. Could you provide it to the Subcommittee?
    Ms. Gerard. Absolutely.
    Mr. Larsen. Thank you.
    Thank you, Madam Chair. I yield back the remainder of my 
time.
    Ms. Brown. Thank you.
    Mr. Shuster?
    Mr. Shuster. Yes, just one final question to Mr. Johnson. 
The rulemaking and reports that were due December of 2007, when 
do you feel as though that will be completed? I know you came 
on board just six months ago, but do you have a time line of 
when we can expect to see what is required completed, and to 
us?
    Mr. Johnson. The materials that we have--most of the 
mandates are addressed. They are either at OMB, they are in 
NPRMs or they are on their way. It is my goal to push as hard 
as we can to get those things accomplished in the time that we 
have left, which is rapidly diminishing, and I can assure you 
that I and the PHMSA staff are doing all we can to get this 
done, and that is our commitment, to get it done. A lot of 
things we don't control affect that, and I hope that our goals 
are met.
    Mr. Shuster. Is the hangup at OMB? Because I know there is 
a public comment period. What is that, 60 days or 90 days?
    Mr. Johnson. It varies. They are major rules, so they do 
need to have the time that people can take a look at it and 
make comment to, and that process is the unknown.
    Mr. Shuster. Right. And is it OMB that is a sticking point?
    Mr. Johnson. I don't know that I would call it a sticking 
point. They do what they do with great deliberation.
    Mr. Shuster. Sometimes too much deliberation. I don't know 
if it is the accountants or the lawyers that hold it up there. 
I would put my money it is the lawyers that hold it up.
    Well, thank you very much. Appreciate your being here 
today.
    Mr. Johnson. Thank you.
    Ms. Brown. I have a couple of security questions. There 
were a number of statutory mandates contained in the 9/11 bill 
related to hazardous materials and pipeline security. Most of 
those were to be implemented by May 2008. What is the status of 
those mandates? And that is for all three.
    Mr. Sammon. Let me take a first shot at it, Congresswoman. 
First, 1557(a) was to establish a program for reviewing 
pipeline operator adoption of the 2002 guideline 
recommendations. That has been completed.
    Section 1557(b), develop and implement a plan for reviewing 
the pipeline security plans and inspection of critical 
facilities of the 100 most critical pipeline operators. The 
plans were to be in place by August 3rd and, as the Inspector 
General has said, that is underway. The plans are in place and 
we are hiring contractors to make sure we can cover all the 
facilities with inspectors who are qualified and complete that.
    Section 1557(d), develop and transmit to operators security 
recommendations for national gas and hazardous liquid pipeline 
facilities. We are working on that. It is basically looking at 
today's guidelines and finalizing those for 2008 for an OMB 
review.
    Section 1557(d) further, to promulgate any necessary 
regulations--if the Secretary determines if regulations are 
necessary and to promulgate those, but also to incorporate the 
2002 security guidelines within those regulations and any other 
information that is found from the 1557 part (b) inspection of 
the 100 most critical facilities.
    1558 is to develop a pipeline security incident recovery 
protocols plan. We are working closely with PHMSA. PHMSA's 
experience, as the Inspector General mentioned, particularly in 
terms of safety and accident and recovery, is invaluable, and 
we want to work with them and make sure we draw upon their 
expertise.
    1558(d), submit a report containing the pipeline security 
and recovery plan and estimate of the private and public sector 
cost to implement any recommendations. Again, we are working 
closely with PHMSA on that plan. We want to make sure that we 
draw upon their expertise and use their recovery capabilities 
and experience to do that properly.
    Mr. Scovel. Madam Chairwoman, if I may. I can be brief. You 
will know from our report released last month and our testimony 
that we focused on pipeline security, in accordance with your 
mandate under the PIPES Act. In doing so, we looked at the 9/11 
Commission Act from 2007 and the requirement for the inspection 
and assessment of the security plans for the 100 most critical 
operators and their facilities.
    Mr. Sammon has advised the Committee that they are on 
track, apparently, for the August 2008 deadline. Our testimony, 
however, made the point that a simple paper review of security 
plans will not be enough. We have strongly recommended that 
vulnerability testing take place. From our experience in the 
aviation security environment, actual physical tests of 
facilities and, in this case, cyber attack testing would be 
most beneficial. Until that happens, what we have are some 
pretty good paperweights in terms of what a security plan and a 
written review might look like. To be truly effective for the 
Country and for the agencies involved, some vulnerability 
testing and detailed reviews of those results would be 
required.
    Ms. Brown. Excuse me. That is right, that is what is in 
your report, and you saying that they needed to do some covert 
testing. I want to know whether or not any of that is taking 
place or where are we as far as this mandate is concerned.
    Mr. Sammon. Well, I will say what our plan is is to follow 
the language of the 9/11 Act, which requires not only reviewing 
security plans, but inspecting the critical facilities. So what 
we are doing is following specifically the language of the 9/11 
Act, and that is our intent. In terms of covert testing, we are 
not doing any covert testing at the present time, nor in terms 
of the inspections, I don't believe we are contemplating covert 
testing at this point in time.
    Ms. Brown. So the coordination is just paper review?
    Mr. Sammon. No, it is an onsite inspection of critical 
facilities, as required by the Act.
    Ms. Brown. I guess the follow-up question would be what is 
needed for additional pipeline security regulation. What should 
we be doing, then, in Congress?
    Mr. Sammon. Well, I think first what we ought to do--I 
think Congress has, in terms of overall security through the 9/
11 Act, addressed broadly all the modes of transportation and 
very specifically under Section 1557 been very explicit in 
terms of what Congress would like to see done, and I think the 
first thing we ought to do is comply and fulfill the 
requirements of Section 1557 of the 9/11 Act.
    Ms. Brown. Well, you know, this is our first hearing, but 
some of the issues that were addressed, we are just getting 
that information in the last week, and I think one of the 
Members' questions was very important, as to when an accident 
occurs, who is responsible for contacting the person that is 
responsible, the local mayor of the community. I don't know 
that we got an answer.
    Ms. Gerard. As it relates to a pipeline accident, we have 
very clear regulations on the requirement for communicating 
with the community both through the emergency response 
officials and I think during an accident. Where we left the 
question open was in the case of a hazmat railroad event. We 
are going to have to check on that and get back to you.
    Ms. Brown. For example, the accident that took place in 
Tampa. Part of that could have been prevented if we had 
additional education, as far as the community is concerned. 
Where are we as far as that education component of the program?
    Ms. Gerard. Actually, I am so glad that you mentioned that. 
We are preparing with Department of Homeland Security a full 
program later this summer. We hope you have the opportunity to 
attend. Representatives from industry will be participating and 
we have a full program planned for emergency response officials 
to upgrade their preparedness for exactly that kind of event. 
So we couldn't agree with you more.
    Ms. Brown. Another follow-up question. What we need to 
further focus our efforts to enhance the pipeline and security 
act. What would be the recommendation, starting with Mr. 
Johnson?
    Mr. Johnson. Well, we certainly have a very good working 
relationship with TSA at this point, and we are participating 
with them on inspections and we have quarterly reviews. I think 
that should TSA decide that they want to do some of these 
vulnerability tests, we would certainly be pleased to provide 
our advice.
    Mr. Scovel. Madam Chairman, if I may return to your point 
about vulnerability testing. If the attention of Congress is 
needed to ensure that vulnerability testing will take place, my 
office strongly recommends that Congress take that action.
    Mr. Sammon. I didn't mean to imply that we are avoiding the 
cyber testing. We have contracted with Applied Physics Lab of 
Johns Hopkins to do that analysis of cyber security 
vulnerability of pipeline systems overall. So in terms of going 
out and testing each of the 100 facilities, no, but what we are 
doing is contracting one of the premier labs to determine what 
is the status and the vulnerability of the pipeline control 
systems to cyber security. That contract is just underway right 
now.
    Ms. Brown. I want to thank the witnesses for their 
testimony and the Members for their questions. Again, if the 
Members of the Subcommittee have additional questions for the 
witnesses, we will ask that you respond to them in writing. I 
know that we have some additional questions that we are going 
to give you. The hearing record will be held open for 14 days 
for Members wishing to make additional statements or to ask 
further questions.
    Unless there is further business, the Subcommittee is 
adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
